         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Quick Reaction Report




       Identification Proofing, Incident
       Handling, and Badge Disposal
       Procedures Needed for EPA’s
       Smartcard Program
       Report No. 08-P-0267

       September 16, 2008
Report Contributors:	                           Rudolph M. Brevard
                                                Corey Costango
                                                Neven Morcos




Abbreviations

EPA          U.S. Environmental Protection Agency
EPASS        EPA Personnel Access and Security System
FIPS         Federal Information Processing Standards
HSPD-12      Homeland Security Presidential Directive 12
ID           Identification
OASIS        Office of Administration Services Information System
OIG          Office of Inspector General
PII          Personally Identifiable Information
PIV          Personal Identity Verification
SMD          Security Management Division
                         U.S. Environmental Protection Agency                                                     08-P-0267 

                         Office of Inspector General                                                      September 16, 2008 




                         At a Glance

                                                                                   Catalyst for Improving the Environment


Why We Did This Review                  Identification Proofing, Incident Handling, and Badge
                                        Disposal Procedures Needed for EPA’s Smartcard Program
The Office of Inspector General
performed this review in response        What We Found
to an inquiry related to controls
over identification documents
                                        Although EPA developed detailed procedures to guide the EPASS staff’s issuance
used for issuing the new
U.S. Environmental Protection           of new Smartcard identification (ID) badges, an employee error in using the new ID
Agency (EPA) Smartcard badges.          card system resulted in an EPA employee having ID documents and other
We performed this review as a           identifying information incorrectly associated with another EPA employee. An
result of a specific incident.          EPASS employee incorrectly accessed the wrong employee’s computer record,
We conducted a limited review of        scanned the ID documents for the employee requesting the Smartcard, then
EPA’s policies and procedures           associated the scanned documents with the incorrectly accessed computer record.
for processing identification           Also, EPA’s procedures for issuing ID cards lacked a vital step required by federal
information collected, responding       guidance. In particular, EPA procedures did not require EPASS staff to visually
to Smartcard badge incidents, and       inspect ID documents and compare them against the individual requesting the
handling of defective Smartcards.
                                        Smartcard and the name on the accessed computer record.
Background
                                        Although we did not discover more than one incident, we found that EPA lacks
Homeland Security Presidential          procedures to ensure employees take steps to correct similar incidents when they
Directive 12 established the            occur. Further, EPA lacks procedures for handling and disposing of defective
requirements for a common               Smartcard badges that contain personally identifiable information. According to
standard for identifying                Security Management Division managers, documenting procedures has been
credentials issued by federal           delayed because management attention has been focused on meeting the Office of
departments and agencies to             Management and Budget deadline to roll out the EPASS program.
federal employees and
contractors. EPA instituted the         Authenticating an individual’s identity is a critical factor for controlling physical
EPA Personnel Access and                and logical access to EPA resources. Without taking immediate steps to correct the
Security System (EPASS)
                                        weaknesses noted, doubts will exist over whether EPA has the ability to become a
program to satisfy this Directive.
The program is part of EPA’s            trusted agent for verifying ID credentials as federal agencies integrate their
larger effort to create an              Smartcard programs.
integrated system to safeguard
and manage workforce identity,           What We Recommend
facility access, and computer
system access throughout EPA.           We recommend that the Director, Security Management Division, Office of
                                        Administration and Resources Management:
For further information,                    •	 Update existing identification card issuing procedures to ensure the
contact our Office of                          procedures include all mandatory steps.
Congressional and Public Liaison
at (202) 566-2391.                          •	 Create incident-handling procedures to be used by EPASS program staff
                                               when errors in the ID card issuing process occur.
To view the full report, click on the
following link:                             •	 Create and implement procedures for proper handling and disposal of
www.epa.gov/oig/reports/2008/                  defective ID badges.
20080916-08-P-0267.pdf
                                        The Agency agreed to implement our recommendations, and we consider the
                                        actions planned to be satisfactory.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                       September 16, 2008

MEMORANDUM

SUBJECT:	              Identification Proofing, Incident Handling, and Badge
                       Disposal Procedures Needed for EPA’s Smartcard Program
                       Report No. 08-P-0267


FROM:	                 Patricia H. Hill
                       Assistant Inspector General for Mission Systems

TO:	                   Wes Carpenter
                       Director, Security Management Division
                       Office of Administration and Resources Management


This report contains time-critical issues the Office of Inspector General (OIG) identified. This
report represents the opinion of the OIG and does not necessarily represent the final position of
the U.S. Environmental Protection Agency (EPA). EPA managers will make final
determinations on matters in this report.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $120,287.

Action Required

The Office of Administration and Resources Management does not have to provide a response to
this report. The Agency’s response to the draft report contained an adequate corrective action
plan with milestone dates to implement the plan. Accordingly, we are closing this report on
issuance. We have no objection to further release of this report to the public. For your
convenience, this report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0893
or brevard.rudy@epa.gov. You may also contact Neven Morcos or Corey Costango, Project
Managers, at (202) 566-9688 or (202) 566-2552, respectively.
Identification Proofing, Incident Handling,                                                                                     08-P-0267
and Badge Disposal Procedures Needed
for EPA’s Smartcard Program




                                      Table of Contents 

   Purpose........................................................................................................................    1     


   Background .................................................................................................................       1     


   Scope and Methodology.............................................................................................                 2     


   Findings .......................................................................................................................   2     


           EPASS Procedures Need Updating to Include All Federal Requirements...........                                              3     

           Procedures Needed for Handling Smartcard Incidents ........................................                                3     

           Procedures Needed for Handling Defective Badges............................................                                4     


   Recommendations ......................................................................................................             5     


   Agency Comments and OIG Response ....................................................................                              5     


   Status of Recommendations and Potential Monetary Benefits..............................                                            6     




Appendices
   A       Agency’s Response to Discussion Draft Report.............................................                                  7     


   B       Distribution .........................................................................................................     9     

                                                                                       08-P-0267 




Purpose
The Office of Inspector General (OIG) initiated this review in response to an inquiry regarding
the controls over identification (ID) documents used for issuing the new Smartcard badges. We
initiated this review after an incident in which an U.S. Environmental Protection Agency (EPA)
employee went to pick up a Smartcard badge and the badge contained the employee’s name but
another employee’s image. We conducted a limited review of EPA’s policies and procedures for
processing ID information. We reviewed how EPA responds to Smartcard badge incidents and
how EPA handles defective Smartcard badges.

Background
Homeland Security Presidential Directive 12 (HSPD-12) established the requirements for a
common ID standard for ID credentials issued by federal departments and agencies. HSPD-12
directed the Department of Commerce to develop a Federal Information Processing Standards
(FIPS) publication to define such a common ID credential that became FIPS 201. FIPS 201
specifies a Personal Identity Verification (PIV) system through which common ID credentials
can be created and later used to verify a claimed identity. The EPA Personnel Access and
Security System (EPASS) Smartcard badge and the associated management program have been
instituted to satisfy EPA’s compliance with HSPD-12 and FIPS 201. The EPASS program is
part of EPA’s larger effort to create an integrated system to safeguard and manage workforce
identity, physical access, and logical access throughout the Agency. EPA’s Security
Management Division (SMD), in the Office of Administration and Resources Management, is
responsible for managing the EPASS program in compliance with all applicable authorities and
directives.

Operation of the Agency’s EPASS program is outlined in two key procedure documents – the
PIV Handbook and the EPASS Operation Manual. The PIV Handbook establishes EPA’s
standard operating procedures for EPASS. The EPASS manual is designed to be a training
document for EPASS registrars and issuers. The manual provides step-by-step descriptions for
the Agency’s ID proofing, enrollment, and badge issuance processes. During ID proofing, the
registrar should:

   1.	 Verify the applicant’s sponsorship status in the Office of Administration Services
       Information System (OASIS). OASIS is the authoritative source for EPASS badge
       holder identity information and maintains the demographic data (name, individual
       affiliation, etc.) needed to initiate a request.

   2.	 Select and copy the applicant’s name from OASIS into another application called Identix.
       Identix is an application used during enrollment to collect an applicant’s demographic
       data, fingerprints, and photograph.

   3.	 Verify the authenticity of the presented ID documents and that they prove the identity of
       the applicant.




                                               1

                                                                                         08-P-0267



The enrollment process is where the applicant’s demographic data, fingerprints, and photograph
are collected. During badge issuance, the issuer allows the applicant to personalize the badge
with a personal ID number. The issuer also has the applicant perform a fingerprint check for
verification. The Agency’s new Smartcard ID badge contains Personally Identifiable
Information (PII) such as an employee’s name, photograph, and fingerprint data. However, the
Agency indicated that the Smartcard ID badge does not contain a Social Security number or
comparable identification numbers, which would be considered Sensitive PII according to EPA’s
Privacy Policy.

Scope and Methodology
We conducted this audit from April through July 2008 at EPA Headquarters in Washington, DC,
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient and appropriate evidence to provide a
reasonable basis for our findings and conclusions based on the audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions.

We evaluated the management control processes over EPA’s Smartcard ID proofing and badge
issuance processes. We reviewed the Agency’s EPASS program procedures. We interviewed
EPA staff responsible for overseeing the EPASS program, and EPA contractors responsible for
the daily operations of EPASS. We had not performed prior reviews/audits related to EPA’s
Smartcard ID proofing and badge issuance processes, so there were no recommendations to
follow up on during this audit.

Findings
Although EPA developed sufficient Smartcard ID card issuance procedures, we found that an
employee error in using the new ID card system led to an EPA employee having ID documents
associated with another EPA employee. An EPASS system operator accessed the wrong
employee’s computer record, scanned the ID documents for the employee requesting the new ID
card, then associated the scanned documents with the incorrectly accessed computer record.
Also, EPA’s ID card issuing procedures lacked a vital step required by federal guidance. In
particular, EPA procedures do not require ID proofing staff to visually inspect collected ID
documents and compare them to the individual requesting the new ID card and the name of the
computer record that is accessed.

Although we did not discover more than this incident, we found that EPA lacks procedures to
ensure that if similar incidents happen again, steps are taken to correct them in a consistent
manner. Further, EPA lacks procedures for handling and destroying defective ID card badges
that contain individuals’ ID information.

SMD managers indicated that procedures have not been documented because they have focused
on meeting the Office of Management and Budget’s deadline for rolling out the EPASS program.
Maintaining control of defective Smartcard ID badges until they are properly disposed of is
important because data on the Smartcard ID badges is PII. The Federal Government's Smartcard
program is built on a chain of trust that starts with the proper verification of a card applicant’s


                                                2

                                                                                        08-P-0267 




identity. ID badges are going to be uniform government-wide and will eventually be used to
access any Federal agency. Implementing these badges across the government will make each
agency more individually accountable for the overall physical security of the Federal
Government.

EPASS Procedures Need Updating to Include All Federal Requirements

EPASS program procedure documents are missing a key step in verifying a card applicant’s
identity, which contributed to the ID badge incident. According to FIPS 201, when verifying a
card applicant’s identity:

   1.	 “The PIV Registrar shall visually inspect the identification documents and authenticate
       them as being genuine and unaltered;

   2.	 “…verify the authenticity of the source document; and

   3.	 “…compare the picture on the source document with the Applicant to confirm that the
       Applicant is the holder of the identity source document.”

Neither the PIV Handbook nor EPASS Operation Manual – which describe EPASS procedures
for ID proofing, enrollment, and badge issuance – includes a step for visually inspecting proof of
identity documents and comparing them to the applicant as part of the ID proofing process.

The current ID proofing procedures contain steps that should have allowed EPASS staff to
recognize the mistake made during the ID proofing process. According to the EPASS Operation
Manual, during ID proofing and enrollment, an applicant is supposed to present a valid ID before
each process starts. At the beginning of ID proofing, the applicant presents a form of
identification. The applicant’s name is then selected from OASIS and copied into Identix.
Before the next step (enrollment) starts, an applicant is supposed to present their identification
again and additional data is entered into Identix. The aforementioned ID proofing procedures
were additional opportunities that should have allowed the registrar or issuer to determine that
they selected the wrong EPA employee.

Procedures Needed for Handling Smartcard Incidents

EPASS program managers had not developed internal procedures to handle errors in the
Smartcard issuance process. When EPASS program managers were alerted of the ID badge
incident, they sought to resolve and correct the problem. EPASS managers discovered that the
source of the problem was in ID proofing. The two employees involved in the incident have
similar last names. After collecting the sensitive employee authentication data the data was
mistakenly saved under the wrong employee’s name. To correct this problem, EPASS managers
instructed the system administrator to move and delete the sensitive employee authentication
data from the wrong employee’s record and copy it into the correct employee’s record, which
circumvented EPASS ID proofing procedures.




                                                3

                                                                                         08-P-0267



EPASS program representatives indicated this was the first time this type of situation occurred.
Also, they indicated that the security controls built into the Smartcard issuance process prevented
the card from being issued. However, during our review, the EPASS staff could not provide us
with documentation that supported how they corrected the incident in question. This
documentation would include what steps the EPASS staff took and when EPA management was
informed about the incident

Having documented procedures and records is important because they provide the framework for
ensuring EPASS staff consistently follow steps prescribed by EPA management. Further, the
new EPA Smartcard contains an employee’s PII. Having documented procedures would allow
EPASS staff to respond to a PII incident as required by EPA’s “Personally Identifiable
Information (PII) Incident Handling & Response Procedure.” This Procedure requires program
managers to tailor incident response activities to meet their specific security or business
requirements. However, EPASS program managers had not developed internal PII incident
response procedures

We found that EPASS program managers had not established procedures to monitor system
administrator changes to employee’s ID records. To resolve this incident, EPASS program
managers corrected the problem by having the system administrator copy, delete, and move data
within the system. These types of system changes bypass the established workflow processes
that ensure the accurate verification of ID credentials and accurate association of these
credentials with the right individual. EPASS program representatives informed us that changes
within the system are recorded in the system audit logs. However, these logs are currently not
being reviewed.

Procedures Needed for Handling Defective Badges

The EPASS program does not have procedures for handling and disposing of defective
Smartcard badges. Since the badge of concern contained one employee’s name and another’s
picture and fingerprint data, we sought to determine the status of the Smartcard badge in
question. Program representatives informed us they had the badge locked in a safe until the
EPASS staff was sure it was appropriate to dispose of it. We asked the program representatives
if these were their usual procedures for handling similar incidents. They informed us they did
not have formal procedures in place because this defective badge incident was a one-time
occurrence. Although one case does not sound significant, in the context of employee ID
proofing and issuance, one incident could undermine the confidence individuals place in EPA’s
ability to protect their confidentially provided PII.

During the course of interviews, we discovered another instance where the EPASS staff cannot
issue Smartcard badges as intended. According to EPASS representatives, when personnel come
to pick up their ID badges they must create a personal ID number and provide a fingerprint check
for verification. EPASS program representatives stated it was common for a number of badges
to not work during the fingerprint verification process. If the card did not pass the fingerprint
verification process, the EPASS staff would not issue the defective card and would replace it
with a new one. At this point in the ID issuance process, these defective badges contain the




                                                4

                                                                                        08-P-0267



individual’s name, picture, and fingerprint data. Therefore, procedures for handling, storing, and
disposing of these defective Smartcard badges are important in order to secure the PII on them.

Recommendations
We recommend that the Director, Security Management Division, Office of Administration and
Resources Management:

   1.	 Update existing ID card issuing procedures to ensure the procedures include all
       mandatory steps required by FIPS 201. This should include steps to require EPASS
       program staff to visually inspect ID documents for proper verification of the applicant’s
       identity.

   2.	 Create incident-handling procedures to be used by EPASS program staff for recording,
       resolving, and notifying management when errors in the ID card issuing process occur.
       These procedures should include adopting, where applicable, EPA’s “Personally
       Identifiable Information (PII) Incident Handling & Response Procedure.” These
       procedures should also include the processes EPASS staff should use to correct employee
       records in the EPASS system, note how the changes to system records should be
       documented, and define a process for reviewing modified employee records for
       authorized changes.

   3.	 Create and implement procedures for the proper handling and disposing of defective ID
       badges.

Agency Comments and OIG Response
The Agency concurred with the report’s recommendations and provided a corrective action plan
to address them. We believe the Agency’s planned actions, once completed, would adequately
address the report’s recommendations. However, the Agency requested that we modify the
report to clarify the type of PII and fingerprint data that is stored on the new EPASS badges.
The Agency also requested that we modify one sentence in the report that inferred the ID card
incident in question was the result of a wrongfully issued EPASS badge. We reviewed the
Agency comments and, where appropriate, modified the report to use consistent language
regarding information stored on EPASS badges and the causes for the ID card incident in
question. The Agency’s complete response is at Appendix A.




                                                5

                                                                                                                                           08-P-0267



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1         Action Official             Date      Amount      Amount

     1        5     Update existing ID card issuing procedures to            O            Director, Security        10/15/2008
                    ensure the procedures include all mandatory steps                   Management Division,
                    required by FIPS 201. This should include steps to               Office of Administration and
                    require EPASS program staff to visually inspect ID                Resources Management
                    documents for proper verification of the applicant’s
                    identity.

     2        5     Create incident-handling procedures to be used by        O            Director, Security        12/15/2008
                    EPASS program staff for recording, resolving, and                   Management Division,
                    notifying management when errors in the ID card                  Office of Administration and
                    issuing process occur. These procedures should                    Resources Management
                    include adopting, where applicable, EPA’s
                    “Personally Identifiable Information (PII) Incident
                    Handling & Response Procedure.” These
                    procedures should also include the processes
                    EPASS staff should use to correct employee
                    records in the EPASS system, note how the
                    changes to system records should be documented,
                    and define a process for reviewing modified
                    employee records for authorized changes.

     3        5     Create and implement procedures for the proper           O            Director, Security        12/15/2008
                    handling and disposing of defective ID badges.                      Management Division,
                                                                                     Office of Administration and
                                                                                      Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 6

                                                                                        08-P-0267



                                                                                    Appendix A


      Agency’s Response to Discussion Draft Report


MEMORANDUM

SUBJECT:       Response to Quick Reaction Report Discussion Draft

FROM:          Renee Page, Director /s/
               Office of Administration

TO:            Rudolph M. Brevard, Director
               Information Resources Management Assessments
               Office of Inspector General

   Thank you for the opportunity to comment on the Office of Inspector General’s (OIG’s)
Quick Reaction Report Discussion Draft of July 11, 2008: Identification Proofing, Incident
Handling, and Badge Disposal Procedures Needed for EPA’s Smartcard Program.

    The Security Management Division (SMD) concurs with the Report’s three
recommendations. Our implementation plans and associated milestones are below.

    Our only comments are to clarify the issue of Personally Identifiable Information (PII) on the
EPASS badge. The Report states, “…data on the Smartcard ID badges is Personally Identifiable
Information” (p. 2); badges “…contain individuals’ ID information” (p. 2); and “…the new EPA
Smartcard contains an employee’s PII” (p.4). Please note that the only PII displayed or stored on
the badge is the employee’s name and photograph. The badge does not contain a Social Security
number or other information considered sensitive PII, as defined by the Agency’s Privacy Policy
(http://www.epa.gov/privacy/policy/2151/index.htm).

   The report also states that badges contain individuals’ fingerprints (p. 4). The badge does not
contain fingerprints, but rather a fingerprint template, a mathematical representation of certain
minutiae (see attached file). The template cannot be used to construct a fingerprint image.

    Finally, we respectfully request the deletion or correction of one sentence: “We reviewed
how EPA responds to incidents of wrongfully issued Smartcard badges” (p. 1). The incident in
question and the Quick Reaction Review did not involve a wrongfully issued badge. The Report
itself states “…the security controls built into the Smartcard issuance process prevented the card
from being issued” (p. 3) and “…we did not discover more than the one incident” (“At a Glance”
page).




                                                7

                                                                                       08-P-0267 




   The following is SMD’s corrective action plan to implement OIG’s recommendations:

   1.	 Update existing ID card issuing procedures to ensure the procedures include all
       mandatory steps required by FIPS 201. This should include steps to require EPASS
       program staff to visually inspect ID documents for proper verification of the applicant’s
       identity.

       SMD will update procedures to require EPASS staff to visually inspect identity
       documents and ensure a match between any photograph and the EPASS applicant, and
       between the name on identity documents and the name in the EPASS record.
       Implementation milestone: Updated procedures will be in place by October 15, 2008.

   2.	 Create incident-handling procedures to be used by EPASS program staff for recording,
       resolving, and notifying management when errors in the ID card issuing process occur.
       These procedures should include adopting, where applicable, EPA’s “Personally
       Identifiable Information (PII) Incident Handling & Response Procedure.” These
       procedures should also include the processes EPASS staff should use to correct employee
       records in the EPASS system, note how the changes to system records should be
       documented, and define a process for reviewing modified employee records for
       authorized changes.

       SMD will create EPASS incident-handling procedures to record, resolve, and notify
       management of errors such as the one examined in this Report. The new procedures will
       include processes, documentation, and guidance for correcting and reviewing employee
       EPASS records. We will adopt portions of EPA’s PII Incident Handling & Response
       Procedures, as applicable. Implementation milestone: Procedures will be in place by
       December 15, 2008.

   3.	 Create and implement procedures for the proper handling and disposing of defective ID
       badges.

       SMD will create and implement procedures for handling and disposing of defective
       EPASS badges, consistent with National Institute of Standards and Technology (NIST)
       Special Publication 800-88, Guidelines for Media Sanitization. Implementation
       milestone: Procedures will be in place by December 15, 2008.


   We believe our corrective action plan and milestones meet OIG’s requirements. If you have
additional questions, please contact Personnel Security Branch Chief Kelly Glazier at 202-564-
0351.

Attachment




                                               8

                                                                                 08-P-0267



                                                                             Appendix B

                                   Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Director, Office of Administration, Office of Administration and Resources Management
Director, Security Management Division, Office of Administration and Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Office of General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Deputy Inspector General




                                            9

